Summary of Credit Terms for BMO Wealth Management Premium Rewards Mastercard®
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

11.99. This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0% introductory APR for 12 months from date of first transfer when transfers are
completed within 90 days from date of account opening.
After that, your APR will be 199%. This APR will vary with the market based on the
Prime Rate.

APR for Cash Advances

27.24
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

Your due date is at least 21 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$175, after the first year from account opening.

Transaction Fees
• Balance Transfer

• Either $10 or 4% of the amount of each balance transfer, whichever is greater.

• Cash Advance

• Either $10 or 5% of the amount of each cash advance, whichever is greater.

• Foreign Transaction

• None

Penalty Fees
• Late Payment

• Up to $39

• Returned Payment

• Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).” See your
Credit Card Cardholder Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the standard APR if you make a late payment.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the same type occurs within six
billing cycles, we will charge up to the maximum fee in the table above. The Late Payment and Returned Payment fees will not
exceed the related Minimum Payment Due.
Promotional/Introductory Rates and Your Grace Period: If you take advantage of an offer with an introductory or promotional
APR, we will charge you interest on new Purchases, unless your new Purchases have a 0% APR, or you pay your Account balance,
including any Balance Transfers and Cash Advances, in full each month by your payment due date.
BMO Harris Bank N.A. is the issuer of BMO Harris credit cards.
NOTICE TO MARRIED WISCONSIN RESIDENTS: No provision of a marital property agreement, unilateral statement or court decree adversely affects our rights unless we get a copy
of the agreement, statement or decree before we grant you credit. You agree that any credit granted will be used in the interest of your marriage or family. State law may require
us to give notice of this credit card account to your spouse.
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon request. The Ohio civil rights commission administers compliance with this law.
NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services by telephone or visit its website for free information on comparative
credit card rates, fees and grace periods. New York State Department of Financial Services: 1-800-342-3736 or http://www.dfs.ny.gov.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the funding of terrorism and money laundering activities, Federal law
requires all financial institutions to obtain, verify and record information that identifies each person who opens an account. What this means for you: When you open an account, we will
ask for your name, address, date of birth and other information that will allow us to identify you. We may also ask to see your driver’s license or other identifying documents.

Mastercard® is a registered trademark of Mastercard International Incorporated. BMO Wealth Management is a brand name that refers to BMO Harris Bank N.A. and certain of its
affiliates that provide certain investment, investment advisory, trust, banking, securities, insurance and brokerage products and services. Banking products and services are
provided by BMO Harris Bank N.A. and are subject to bank and credit approval. BMO Harris Bank N.A. Member FDIC. © 21 BMO Harris Bank N.A. All Rights Reserved. (0401/21)
bmoharris.com

